IN THE SUPREME COURT OF THE UNITED STATES
No. 19-547
United States Fish and Wildlife Service, et al.,
Petitioners,
v.
Sierra Club, Inc.,
Respondent.

CERTIFICATE OF SERVICE
I, Sanjay Narayan, counsel for Sierra Club, hereby certify that on this 2nd
day of June, 2020, I have caused an electronic copy of Sierra Club’s Blanket Consent
to be served by electronic mail, pursuant to this Court’s order of April 15, 2020, on
the following counsel:
Noel Francisco, Solicitor General
Michael R. Huston, Assistant to Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Attorneys for Petitioners
I further certify that all parties required to be served have been served.

Sanjay Narayan
Sierra Club Environmental Law Program
2101 Webster Street, Suite 1300
Oakland, CA 94612
(415) 977-5769
sanjay.narayan@sierraclub.org

